              OFFICE OF
             INSPECTOR GENERAL
              U.S.DEPARTMENT OF THE INTERIOR


                                                                                                August 11 , 2014

Memorandum

To:           Eric Eisenstein
              Division Chief, Internal Control and Audit Follow-up
              Office of Financial Man~  ge    t          , _/ /L                            _
From:         Michael P. Colombo
              Western Regional Man            r   fo~lnspections,
                                                             ~c:/~
                                                                                  and Evaluations

Subject:      Verification Review of Recommendations for the Audit Report, "Hazardous Fuels
              Reduction Program, Department of the Interior" (W-IN-MOA-0002-2005 ,
              April 2006)
              Report No. WR-VS-OSS-0005-2014

        The U.S. Department ofthe Interior (DOl) Office of the Inspector General (OIG) has
completed a verification review of the five recommendations presented in the subject audit
report. The objective of the verification was to determine whether the recommendations were
implemented by the Department as reported to the Office of Financial Management (PFM),
Office of Policy, Management and Budget (PMB). PFM reported to OIG when each of the five
recommendations in the subject report had been addressed and provided supporting
documentation. As a result, the audit report effectively closed November 6, 2009. Based on our
verification, we concur that all five recommendations are resolved and implemented.

Background

        Our April 17, 2006 audit report, "Hazardous Fuels Reduction Program, Department of
the Interior," contained five recommendations relating to performance measurement, operational
funding and contracting for hazardous fuel reduction projects, and collaborating with the United
States Forest Service (USFS).

        In his March 28, 2006 response to the draft report, the Assistant Secretary for Policy,
Management and Budget partially concurred with Recommendation 1 and concurred with
Recommendations 2, 3, 4, and 5. With regard to Recommendation 1, the Assistant Secretary
agreed that performance measures could be improved, but also stated that the Department had no
current means of attaching costs to individual fuels treatments based upon vegetation and
topography as we had recommended, and doing so would be costly and take years to implement.
We considered Recommendation 1 to be unresolved and asked the Assistant Secretary to
reconsider his response to this recommendation. We considered Recommendations 2 and 5 to be
resolved but not implemented and requested additional information for Recommendations 3
and4.



                        Office of Audits, Inspections, and Evaluations   I Sacramento, CA
        In a June 15, 2006 response, the Deputy Secretary concurred with the Assistant
Secretary’s previous response to Recommendation 1, stating that, "Managers already have a
good working knowledge of the comparative costs of hazardous fuels treatments by vegetation
and terrain that they may factor into the program as appropriate.” Based on the Deputy
Secretary’s response, we revised the recommendation to eliminate the portion that called on the
Department to measure the cost and difficulty of treating different types of vegetation on
different topographies. On July 27, 2006, we informed PFM that we considered all five
recommendations resolved and referred the recommendations for tracking of implementation.

        Subsequently, PFM reported that all five recommendations had been implemented
(memorandums dated September 28, 2007; February 21, 2008; and October 6, 2009), and the
audit report was closed.

Scope and Methodology

       The scope of this review was limited to determining whether DOI took action to
implement the recommendations. To accomplish our objective, we reviewed documentation
submitted to PMB to close the recommendations, participated in discussions with Office of
Wildland Fire Coordination (OWFC) officials, and obtained and reviewed additional supporting
documentation from OWFC.

        We did not perform any site visits or conduct fieldwork to determine whether DOI had
corrected the underlying deficiencies we initially identified. As a result, this review was not
conducted in accordance with the Generally Accepted Government Auditing Standards issued by
the Comptroller General of the United States or the Quality Standards for Inspection and
Evaluation as set forth by the Council of the Inspectors General on Integrity and Efficiency.

Results of Review

       Our current review found that OWFC implemented all five recommendations.

       Recommendation 1: Develop performance measures, in coordination with USFS that
       focus on outcomes (reduction of wildland fire risk).

       Action Taken: At the time the audit report was issued, DOI was engaged with USFS in
developing mutually acceptable approaches that would also satisfy the Office of Management
and Budget. This effort was interwoven with the Wildland Fire Leadership Council's review of
the "10-Year Strategy Implementation Plan" (2006), a strategic intergovernmental planning
document required by Congressional Appropriations (Public Law 106-291 for Fiscal Year 2001).
The performance measures from this document were subsequently incorporated into the
Wildland Fire Management Budget Justification, which serves as the current plan and
performance measure in place.

        The outcome-based performance measures relating to the fuels program are identical to
those that were identified in the “10-Year Strategy Implementation Plan” provided by PFM when
it closed this recommendation on September 28, 2007. In the section for Goal 2 - Reduce


                                               2
Hazardous Fuels, the strategy document identifies the following implementation outcome:
“Hazardous fuels are treated, using appropriate tools, to reduce the risk of wildfire to
communities and to the environment.”

        In order to achieve this outcome, three performance measures were developed. The first
two performance measures focus on simple output (number of acres treated). We concluded,
however, that the third performance measure, “Percent of collaboratively identified high-priority
acres treated where fire management objectives are achieved as identified in applicable
management plans or strategies,” addresses the desired outcome - risk reduction. In addition, we
concluded from our review of recent performance measurement data that emphasis has been
placed on treating high-priority acres in the wildland urban interface and on moving acreage to
better condition classes. Based on the Department’s creation and use of the revised performance
measure, we conclude that Recommendation 1 has been implemented.

       Recommendation 2: Define performance reporting, in coordination with USFS, to
       separately identify and distinguish between initial fuels reduction and maintenance
       treatments to more accurately reflect progress made under the [Hazardous Fuels
       Reduction (HFR)] Program.

        Action Taken: As with Recommendation 1, documentation and guidelines for
implementing Recommendation 2 were included in the “10-Year Strategy Implementation Plan.”
In the section for Goal 3 – Restoration and Post-Fire Adapted Ecosystems, the strategy document
identifies the following outcome under Part A: “Fire-adapted ecosystems are restored and
maintained, using appropriate tools, in a manner that will provide sustainable environmental,
social, and economic benefits.” One of the performance measures established to address this
outcome, “Number and percent of acres treated to restore fire-adapted ecosystems which are
moved toward desired conditions, and maintained in desired conditions,” addressed our
recommendation requirements.

         In addition, we noted that performance measurement data for 2004-2013 describe the
total acres treated and the acres improved. These measures provide data to distinguish between
initial fuels reduction and maintenance treatments. We therefore conclude that
Recommendation 2 has been implemented.

       Recommendation 3: Work with bureau program and budgetary staff to reduce the delay
       time between enactment of DOI’s appropriation and the availability of HFR funds to field
       offices.

        Action Taken: The Assistant Secretary’s response to the Inspector General on March 28,
2006, listed the following actions that would be taken to implement Recommendation 3:

      The Director of the OWFC will work with Departmental and bureau budget and
       procurement staff to identify and resolve remaining questions by August 1, 2006.

      Supplementary guidance will be prepared and issued by September 1, 2006.



                                                3
        On February 21, 2008, the Department issued a closing memorandum for this
recommendation, explaining the basic organization and process for the allocation of appropriated
funds to the bureaus and reporting that “currently no problem exists in this area.” We concluded
that the information and documentation provided with the Assistant Secretary’s closing
memorandum only addressed the allocation of funds to the bureau level and did not sufficiently
address our concerns with regard to making funds available to field offices in a timely manner.

        As part of our current review, we obtained a copy of the November 6, 2006
supplementary guidance. This document urged bureau budget and finance offices, working with
their counterparts at the regional and state levels, to take the necessary steps to ensure that
hazardous fuels funds make it to the field level as early in the fiscal year as possible to take
maximum advantage of the prime fuels treatment window and to facilitate the timely and
efficient implementation of fuels treatments. Based on our review of the available
documentation, we conclude that Recommendation 3 has been implemented.

       Recommendation 4: Fully use the program management flexibility provided by
       Congress through no-year appropriations to provide contracting continuity within fiscal
       years to conduct a balanced HFR Program.

       Action Taken: The Assistant Secretary’s response said that each bureau director would
be asked to provide a plan to assure that contracts were issued throughout the fiscal year. The
plans would be due August 1, 2006. No plans, however, were provided with the memorandum
closing this recommendation. The memorandum stated that the National Interagency Fuels
Coordination Group had established consistent annual procedures to manage projects utilizing
both regular appropriations and carry over funds, however, those procedures were also not
provided with the closing of this recommendation.

        As part of our current review, we requested copies of the bureau plans referenced in the
response and the procedures mentioned in the closing memorandum. OWFC officials informed
us that neither was available and provided alternative documentation on HFR planning. These
documents included a memorandum dated October 24, 2012, from the Deputy Assistant
Secretary informing bureau directors that under the 2013 Continuing Appropriations Resolution
(CR), the Department would continue to emphasize an aggressive and comprehensive wildland
fire program which would provide maximum flexibility to conduct HFR fuels treatments early in
the fiscal year when conditions are often optimal for successfully accomplishing treatments. The
memorandum emphasized that HFR activities undertaken within the Wildland Fire Management
account can be funded under the CR and encouraged bureau program leadership, budget offices,
and procurement offices to work with field offices to expedite funding for wildland fire program
activities, including HFR treatments.

        In addition, we were provided evidence that Wildland Fire Management funds were
carried over from the prior year in each of fiscal years 2009 to 2014. Based on the information
we received, we conclude that Recommendation 4 has been implemented.




                                                4
       Recommendation 5: Collaborate with USFS to implement either the established
       Agreement or an alternative solution to interagency coordination on fuels reduction that
       is consistent, equitable, and cost effective.

         Action Taken: The Assistant Secretary’s response to the report in March 2006 concurred
with this recommendation and stated that the Director of OWFC would work with the Deputy
Chief for the State and Private Forestry at USFS to resolve coordination and collaboration issues.
If this attempt was unsuccessful, the Deputy Assistant Secretary for Business Management and
Wildland Fire would address the matter with the Deputy Under Secretary for Natural Resources
at the United States Department of Agriculture (USDA). In documentation provided by PFM
with the October 2009 closure memorandum, the Office of Wildland Fire Coordination stated
that they would continue to operate under the same agreement that was in place at the time we
conducted our audit. The documentation provided with the closure memorandum did not
demonstrate any attempt to work with USDA to resolve the coordination and collaboration
issues.

       As part of our current review, we asked OWFC for additional documentation to support
the implementation of this recommendation. OWFC officials stated that a new agreement was
signed and implemented in 2010 and provided a copy of that document which states:

               Any endeavor involving reimbursement or contribution of funds between
       or among the parties to this Agreement will be handled in accordance with
       applicable laws, regulations, and procedures. The services requested and provided
       will be outlined in separate agreements or other appropriate arrangements that
       shall be made in writing by representatives of the involved agencies and shall be
       independently authorized by appropriate statutory authority and signatures.

        The agreement was signed by Bureau of Land Management, U.S. Forest Service, Bureau
of Indian Affairs, Fish and Wildlife Service, and National Park Service Directors and was
effective on May 6, 2010. After reviewing the new agreement, we conclude that
Recommendation 5 has been implemented.

Conclusion

        We informed OWFC officials of the results of this review. OWFC officials agreed with
our results and declined to have an exit conference. In addition, we informed PFM of the results
on July 23, 2014.

       If you have any questions about this report, please contact me at 916-978-5653.

cc:    Paul Steblein, Deputy Director, Policy & Budget, Office of Wildland Fire
       Alex Lampros, Liaison Officer, Office of Financial Management




                                                5
